Audit of the USAID-Financed Yungas Development
Initiative
Audit Report No. 1-511-02-012-P

July 5, 2002




                San Salvador, El Salvador
RIG/San Salvador


July 5, 2002

MEMORANDUM

FOR:               USAID/Bolivia Director, Liliana Ayalde

FROM:              Acting Regional Inspector General/San Salvador, Steven H. Bernstein

SUBJECT:           Audit of the USAID-Financed Yungas Development Initiative
                   (Report No. 1-511-02-012-P)

This memorandum is our report on the subject audit. It does not contain any
recommendations for your action.

In finalizing the report, we considered your comments on our draft report. Your
comments are included in their entirety in Appendix II.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                   1
Table of   Summary of Results                                                       3
Contents

           Background                                                               3


           Audit Objectives                                                         4


           Audit Findings                                                           4

                  How have USAID/Bolivia funds been spent under the Yungas
                  Development Initiative?                                           4

                  Is the USAID/Bolivia-financed Yungas Development Initiative on
                  schedule to achieve planned outputs?                              5

                  Did USAID/Bolivia implement a monitoring system for its Yungas
                  Development Initiative in accordance with USAID policies?         5


           Management Comments and Our Evaluation                                   6


           Appendix I – Scope and Methodology                                       7


           Appendix II – Management Comments                                        9


           Appendix III – Planned and Actual Outputs                               10




                                                                                        2
Summary of   The Regional Inspector General/San Salvador conducted an audit to determine how
Results      program funds were spent and whether the Yungas Development Initiative was on
             schedule to achieve planned outputs. Also, the audit was to determine if
             USAID/Bolivia implemented a monitoring system in accordance with USAID
             policies (page 3).

             The results of the audit indicated that USAID/Bolivia spent approximately $3.3
             million through December 31, 2001 on six activities and their oversight (page 4) and
             that the Yungas Development Initiative was not on schedule to achieve planned
             outputs (page 4). USAID/Bolivia monitored the quality, timeliness and
             environmental impact of outputs in accordance with USAID policies (page 5). Since
             the causes behind delays in achieving planned outputs have been resolved and
             because the Mission has already taken action to speed up impacted activities, we are
             not making a recommendation (page 5).

             In responding to the draft audit report, USAID/Bolivia management agreed with
             the report and its findings (page 6).



Background   On July 13, 2000, the U.S. Congress appropriated $869 million in supplemental
             funding, known as Plan Colombia, to the U.S. Department of State, of which $80
             million was allocated to USAID in support of its counternarcotic efforts in
             Bolivia. USAID/Bolivia received funding in December 2000, and as of
             December 31, 2001, has committed approximately $25.9 million to support its
             Yungas 1 Development Initiative (YDI). The government of Bolivia plans to
             contribute about $31.7 million in support of USAID’s counternarcotic efforts,
             including the YDI.

             YDI contributes to the Mission’s strategic objective entitled “Illegal and excess
             coca eliminated from Bolivia.” The initiative includes four components, three of
             which are extensions of current Mission programs in health, democracy and
             agriculture marketing. The fourth component is the establishment of a
             Community Development Fund that will provide grants and co-financing for
             productive infrastructure development, road maintenance and other investments
             identified by participating communities that will enhance the quality of life in the
             Yungas.




             _______________________
             1
               The Yungas is a sub-tropical region covering an area of 15,058 square miles near the capital of
             Bolivia, La Paz. It has a population of approximately 245,000 people.



                                                                                                                 3
Audit            The Regional Inspector General/San Salvador included an audit in its fiscal year
Objectives       2002 audit plan to answer the following questions:

                 •    How have USAID/Bolivia funds been spent under the Yungas
                      Development Initiative?

                 •    Is the USAID/Bolivia-financed Yungas Development Initiative on
                      schedule to achieve planned outputs?

                 •    Did USAID/Bolivia implement a monitoring system for its Yungas
                      Development Initiative in accordance with USAID policies?

                 Appendix I describes the audit's scope and methodology.



Audit Findings   How have USAID/Bolivia funds been spent under the Yungas Development
                 Initiative?

                 Funds were spent under the Yungas Development Initiative on six activities and
                 their oversight as follows:

                     No.        Brief Description             Committed as of           Expended2 as of
                                                             December 31, 2001         December 31, 2001
                                                                (Unaudited)               (Unaudited)
                  1        Infrastructure – Roads and
                           Bridges (Roads)                             $6,253,921                 $ 364,436
                  2        Community Development
                           Fund (CDF)                                    9,956,545                 1,475,670
                  3        Infrastructure –
                           Electrification                               1,900,000                              0
                  4        Technical Assistance-
                           Agriculture Market
                           Development (Market
                           Access)                                       3,600,000                   187,054
                  5        Technical Assistance –
                           Municipal Government
                           Management (Democracy)                         800,000                    133,496
                  6        Health Activities (Health)                   2,500,000                    942,976
                           Activity Oversight                             913,486                    147,179
                                                                      $25,923,952                 $3,250,811

                 _______________________
                 2
                   Expended equates to amounts disbursed and accrued as reported by USAID/Bolivia’s financial
                 management system.


                                                                                                                4
Is the USAID/Bolivia-financed Yungas Development Initiative on schedule to
achieve planned outputs?

The Yungas Development Initiative is not on schedule to achieve planned outputs.

Planned versus achieved outputs as of December 31, 2001, are included as Appendix
III. As illustrated in this Appendix, 13 of the 19 outputs (or 68 percent) had
achieved at least 90 percent of their planned targets as of December 31, 2001. Six
outputs, all related to Health activities, achieved less than 90 percent of their planned
targets. For example, the Health activity implementor planned to construct ten
school latrines by December 31, 2001. However, only four (or 40 percent) were
constructed. As a result, the intended beneficiaries did not receive the planned
level of benefits.

Planned targets for the six outputs were not achieved primarily due to delays in
the initial implementation of activities. Initial implementation was scheduled to
begin soon after the award became effective in April 2001, but local bureaucracy
delayed implementation until June 2001. For example, it took longer than
anticipated to get local governments to agree on the specific activities to be
undertaken and provide titles so that the activities could proceed. In addition,
according to a December 2001 activities progress report prepared by one of the
implementing partners, social unrest in the Yungas resulted in roadblocks and in
implementing agencies that were associated with alternative development
activities being asked to leave the area.

Although the intended beneficiaries did not receive the planned level of benefits
by December 31, 2001, we are not making a recommendation for three reasons.
First, according to USAID/Bolivia officials, as of the end of May 2002, the social
unrest in the Yungas has stabilized. Secondly, the initial issues with the local
bureaucracy have been resolved by coming to agreements with local governments
and/or changing site locations. Third, since the initial delays, both the Mission
and implementers have taken steps, such as planning to hire an additional
engineer to design, supervise, and inspect the construction activities, to speed up
implementation in calendar year 2002. As a result, the Mission and its
implementing partners are confident that future outputs will be reached in a timely
manner. We believe that this is feasible because the construction of latrines
(relating to 4 of the 6 affected outputs) is relatively simple and the quantity to be
constructed is not significant.

Did USAID/Bolivia implement a monitoring system for its Yungas
Development Initiative in accordance with USAID policies?

USAID/Bolivia implemented a monitoring system in accordance with USAID
policies to track program outputs for all active agreements.




                                                                                       5
                 In accordance with Automated Directives System 202.3.4, USAID/Bolivia
                 implemented a monitoring system that included the following general
                 components:

                        •   developing Contract Monitoring Plans,

                        •   reviewing performance and financial reports,

                        •   monitoring the quality and timeliness of key outputs and

                        •   monitoring positive or negative environmental impacts.

                 To perform day-to-day monitoring, USAID/Bolivia hired a Personal Services
                 Contractor to perform regular oversight of all Yungas Development Initiative
                 activities. Other USAID/Bolivia officials, such as activity managers, implement a
                 monitoring system that includes the review of financial and performance reports,
                 regular contact with program implementers, and frequent site visits. In addition, for
                 particularly risky activities, such as the roads and bridges activity, USAID/Bolivia
                 contracted an independent construction supervisor. At the time of audit, monitoring
                 efforts were just beginning to get underway.

                 Additionally, in accordance with Automated Directives System 204.5.4,
                 USAID/Bolivia implemented a system to monitor environmental impacts of the
                 Yungas Development Initiative. Under the system, current activities received an
                 environmental impact assessment. In these assessments, potential environmental
                 impacts such as erosion, waste disposal, and water quality degradation that could
                 occur at local project sites were assessed and mitigation proposed.



Management       USAID/Bolivia, in its comments to our draft report, agreed with the report and its
Comments and     findings.
Our Evaluation




                                                                                                     6
                                                                                            Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General/San Salvador conducted this audit, in accordance
              with generally accepted government auditing standards, to determine how
              USAID/Bolivia expended funds under the Yungas Development Initiative (YDI),
              whether planned outputs were achieved, and if USAID/Bolivia implemented a
              monitoring system in accordance with USAID policies.

              The audit covered all activities committed by USAID/Bolivia, and the outputs
              achieved, from the beginning of the YDI on March 16, 2001 3 to December 31,
              2001. As of December 31, 2001, commitments and expenditures were $25.9
              million and $3.3 million, respectively. The audit was conducted at
              USAID/Bolivia from February 25, 2002 through March 12, 2002.

              We assessed risk exposure and the effectiveness of USAID/Bolivia’s management
              controls for ensuring that the YDI was on schedule to achieve planned outputs.
              We interviewed USAID/Bolivia officials and reviewed the following management
              controls: 1) Mission’s self-assessment of its adherence with the Federal Managers’
              Financial Integrity Act of 1982, as reported in its October 2001 report, 2) contracting
              with outside parties to assist in the oversight of the YDI, 3) monitoring for results
              under its Performance Monitoring Plan, 4) obtaining progress reports from
              implementors, 5) maintaining regular contact with implementors, and 6) performing
              site visits.

              Methodology

              In conducting the audit, we interviewed Mission management personnel and
              reviewed implementing agreements, work plans, progress reports, and other project
              documentation.

              For the first objective, we examined Mission-generated financial reports and
              implementing agreements to determine how program funds were spent.

              For the second objective, we reviewed activity documents and interviewed
              Mission managers to determine the planned and actual outputs as of December
              31, 2001. We then verified selected targets achieved by reviewing completed
              products, such as workplans. We judgmentally selected the outputs to verify (5 of
              the 19, or 26 percent) based on the results of our management control assessment.
              Specifically, we determined that the extensiveness of audit tests necessary was
              low. We examined outputs that could be verified by reviewing completed
              products maintained at USAID/Bolivia.


              _______________________
              3
                March 16, 2001 was the date that an amendment to an agreement between USAID and the
              Government of Bolivia, which added the YDI, was signed.


                                                                                                      7
                                                                         Appendix I

We considered the program to be on schedule if 90 percent of the planned outputs
were at least 90 percent achieved. This threshold reflected our judgment about
the level of performance that was practical and achievable for the audited
activities.

For the third objective, we tested all open contracts or grants to determine whether
USAID monitored the agreement during the 2001 calendar year as required by
USAID policies.

We identified four monitoring measures that we judged to be a minimum level of
monitoring required by USAID policy, the Automated Directives System (ADS).
To determine the significance of our findings, our opinion would be based upon
the following monitoring measures for contracts and grants:

•   for contracts, the Mission developed a Contract Monitoring Plan ADS
    202.3.4.1);

•   for contracts and grants, the Mission reviewed performance and financial
    reports from the implementers (ADS 202.3.4.1 and 22 CFR 226.51);

•   for contracts and grants, the Mission assessed the quality and timeliness of key
    outputs (ADS 202.3.4 and 22 CFR 226.51); and

•   for contracts and grants, the Mission obtained and reviewed reports that show
    changes in environmental quality, positive or negative, during the
    implementation of the activity (ADS 204.5.4 and 22 CFR 216).

Our opinion would be adverse if less than 85 percent of the contracts and grants
we reviewed met the four monitoring measures mentioned above. Our opinion
would be qualified if 85 percent but less than 95 percent of the contracts and
grants we reviewed met the four monitoring measures. Our opinion would be
unqualified if 95 percent or more of the contracts and grants we reviewed met the
four monitoring measures. The percentages are a matter of auditor’s judgment.




                                                                                       8
                                                                                    Appendix II


Management                                                      UNITED STATES GOVERNMENT
Comments
             Memorandum
                                                                                     FMO-02/218




             Date           : June 11, 2002

             Reply to
             Attn of        : Wayne Nilsestuen [signed], Acting Mission Director

             Subject        : Audit Report 1-511-02-00X-P - USAID-Financed Yungas
                              Development Initiative

             To             : Timothy Cox, RIG/SS
                              Steven Bernstein, RIG/SS


             This memorandum is our response to the draft report on subject audit, which
             contained no findings .

             The Mission considers the audit report to be clear and complete in its
             presentation. However, we have one observation, on page 3, under Background.
             The report states: “…to the U.S. Department of State, of which $69 million was
             allocated to USAID in support of its counternarcotics efforts in Bolivia”. Please
             note that the total amount of Plan Colombia funds allocated to USAID/Bolivia’s
             Alternative Development strategic objective was $80 million of which $69 were
             provided in a first tranche and $11 million in a second tranche.

             The Mission requests that the above clarification be included in the final Audit
             Report.




                                                                                                9
                                                                                                                         Appendix III

                                                           Planned and Actual Outputs


       No.           Activity Name                      Description of Output             Target         Target        Percentage
                                                                                      Planned to be   Achieved as of   Achieved*
                                                                                       Achieved by      12/31/01
                                                                                         12/31/01
         1       Health                        Cases of Leishmaniasis Diagnosed            293             299           102 %
         2       Health                        Cases of Leishmaniasis Treated              246             246           100 %
         3       Health                        Community Visits                            283             235            83 %
         4       Health                        Cases of Tuberculosis Diagnosed            2,162           1,617           75 %
         5       Health                        Cases of Tuberculosis Treated               216             215           100 %
         6       Health                        Water Systems Constructed                     3              2.9           97 %
         7       Health                        School Latrines Constructed                  10               4            40 %
         8       Health                        Community Latrines Constructed                4              2.7           68 %
         9       Health                        Household Latrines Constructed               67             13.2           20 %
        10       Health                        Treatment Centers Constructed                 2               1            50 %
        11       CDF                           University Workplan Completed                 1               1           100 %
                                               Proof of Registration for Students
        12       CDF                           Receiving Scholarships                      33              33            100 %
        13       CDF                           Coca Reduction Agreements Signed             6               6            100 %
        14       Democracy                     Workplan Completed                           1               1            100 %
                                               Master Plans for Coffee, Tourism and
        15       Market Access                 Cash Crops Components Completed              3               3            100 %
        16       Roads                         Offices Opened                               2               2            100 %
        17       Roads                         Offices Fully Staffed                        2               2            100 %
                                               Road/Bridges Construction Contracts
        18       Roads                         Signed                                       4               4            100 %
        19       Roads                         Procurement Agent Contract Signed            1               1            100 %
*
    Shaded areas mean that less than 90 percent of the planned target was achieved.



                                                                                                                                    10
